AUDIT OF TWO 8(A) SOLE-SOURCE CONTRACTS
       AWARDED TO CONTRACTORS IN
    SBA’S MENTOR PROTÉGÉ PROGRAM



             Report Number: 07-19

            Date Issued: 03/30/2007
           U.S. Small Business Administration
                                                      Memorandum
           Office of Inspector General

    To:    Dr. Paul Hsu                                                  Date:   March 30, 2007
           Associate Administrator for Government Contracting and
           Business Development

           Jennifer Main
           Chief Financial Officer

           Michael Pappas
           Associate Administrator for Field Operations
  From:
           Debra S. Ritt
           Assistant Inspector General for Auditing
Subject:   Audit of Two 8(a) Sole-Source Contracts Awarded to Contractors in SBA’s Mentor
           Protégé Program

              This report presents the results of our audit of two 8(a) sole-source dredging
              contracts awarded by the Army Corps of Engineers to contractors participating in
              the Small Business Administration's (SBA) Mentor Protégé Program. The audit
              was initiated to determine the validity of a complaint alleging that the contracts
              were performed by large businesses, in violation of small business procurement
              laws and regulations and contrary to the intent of the 8(a) and Mentor Protégé
              programs.

              To address the allegations, we evaluated the eligibility of the two companies that
              received contract awards and determined whether the contracts were performed in
              compliance SBA's size standards and work performance requirements. We also
              interviewed officials from SBA’s Office of Government Contracting and Business
              Development and Office of General Counsel. Additionally, we collected
              information from the Philadelphia and Jacksonville District Offices of the Army
              Corps of Engineers, SBA's Philadelphia and North Florida District Offices, and
              the recipients of the sole-source dredging contracts. The audit was conducted
              from February to September 2006, in accordance with Government Auditing
              Standards.
                                                                                       2


On September 8, 2006, we reported 1 that one of the reviewed contracts violated
SBA’s small business procurement requirements and that the contractor provided
inaccurate information to the Federal government in order to obtain the contract.
As a result, the OIG recommended the contractor be terminated and immediately
suspended from the 8(a) program.

BACKGROUND

The Mentor Protégé Program, which is administered under SBA's 8(a) program,
encourages financially-sound businesses to mentor eligible 8(a) participants
(protégés) by providing technical, management and financial assistance;
subcontracting support; and opportunities to compete for Federal contracts through
joint ventures with large businesses. To establish a mentor protégé relationship,
mentor and protégé firms must enter into a written agreement setting forth the
protégé’s needs and the assistance the mentor will provide to address those needs.
The agreement is approved by SBA’s Associate Administrator for Business
Development. As of September 26, 2005, SBA's website listed 388 approved
mentor protégé agreements.

To joint venture on an 8(a) contract, the mentor and protégé must sign a joint
venture agreement, which among other requirements, sets forth the purpose of the
venture and responsibilities of the parties involved. The agreement, along with a
joint venture application, is provided to SBA for approval prior to contract award.
In approving mentor protégé and joint venture arrangements, SBA determines
whether the arrangement promotes real developmental gains to the protégé or
merely is a vehicle to enable a non-8(a) participant to receive 8(a) contracts.

The two dredging contracts that were the subject of the complaint were awarded as
8(a) sole-source contracts to participants of SBA’s Mentor Protégé program. The
first contract was awarded by the Jacksonville Corps of Engineers under a joint
venture agreement with a large business mentor, [Exemption 6]and its protégé,
[Exemption 6], an 8(a) program participant serviced by SBA’s North Florida
District Office, formed its mentor protégé relationship with [Exemption 6]in
2002. The complainant alleged that the joint venture violated the rules governing
the 8(a) sole-source award by subcontracting 100 percent of the work to a large
dredging firm called [Exemption 6].

The second contract was awarded by the Philadelphia Corps of Engineers to
[Exemption 6] for dredging of the Schuylkill River. [Exemption 6]was an
8(a) program participant that had recently developed a mentor protégé relationship
1
    Management Advisory Report 6-27, Concerns Related to [Exemption 6]
    Compliance with 8(a) Business Development Program Requirements (September 2006).
                                                                                  3


with [Exemption 6], a large dredging business. The complainant alleged that
[Exemption 6]acted as a front by receiving the 8(a) sole-source contract and
allowing its mentor to perform 100 percent of the work.

RESULTS IN BRIEF

The audit substantiated the complainant's allegations. The two dredging contracts
were not awarded and performed in compliance with 8(a) program laws and
regulations. Large businesses performed 86 to 98 percent of the dredging work
and materially benefited from the contracts that were sole-sourced to 8(a)
participants, contrary to the intent of the 8(a) and Mentor Protégé programs.

Specifically, we found that SBA accepted both contracts into the 8(a) program
although neither one met 8(a) size standards. The contract in Jacksonville also
failed to demonstrate how the 8(a) contractor would benefit from the joint venture,
and in Philadelphia the contractor did not meet other 8(a) program eligibility
requirements. The audit also disclosed that both contractors failed to perform the
contracts in accordance with applicable laws and regulations. Discussions with
responsible Agency officials, the Army Corps of Engineers, and the contractors
disclosed that SBA did not detect these deficiencies because it:

   • Accepted procurements prior to contract solicitation, leaving it without the
     information needed to determine whether applicants met the size standards.

   • Did not have a sufficient number of trained individuals to effectively
     perform its oversight responsibilities under the 8(a) program.

   • Had not developed sufficient 8(a) program monitoring procedures and
     properly communicated program requirements.

   • Did not hold required procuring agencies accountable for their compliance
     with 8(a) program monitoring requirements.

Previous work completed by the Office of Inspector General (OIG) and the
Government Accountability Office (GAO) have also identified systemic internal
control weaknesses in SBA’s oversight that will continue to affect the integrity of
the 8(a) and Mentor Protégé programs until properly addressed. Unless SBA
strengthens internal controls over the 8(a) and Mentor Protégé programs, it cannot
ensure that these programs operate as statutorily mandated with minimal potential
for fraud, waste and abuse.
                                                                                 4


The Offices of Field Operations, Government Contracting and Business
Development, and Chief Financial Officer reviewed and provided comments on
this report prior to its issuance in final. They agreed with the findings and
generally agreed with our recommendations. We have summarized management’s
comments at the end of this report and included their complete responses in
Appendix III.

FINDINGS

SBA Accepted the Dredging Contracts Although They Did Not Meet
8(a) Requirements

SBA improperly accepted the Jacksonville and Philadelphia dredging contracts
into the 8(a) program, permitting these contracts to be sole sourced to companies
who were ineligible for the awards. Specifically, SBA did not ensure the
contractors were small, the joint venture arrangement in Jacksonville did not meet
SBA requirements, and the Philadelphia contractor did not meet a number of other
eligibility requirements specified in 8(a) program procurement regulations.

SBA Did Not Ensure Both 8(a) Contractors Met SBA Size Standards

The audit determined that SBA officials did not ensure that the 8(a) contractors
met small business size standard requirements prior to accepting the procurements
into the 8(a) program. As part of SBA’s acceptance of an 8(a) sole source
procurement on behalf of a program participant, it must ensure that the contractor
is small according to the contract’s designated size standard. Dredging contracts
have a unique size standard, where a company must have less than $17 million in
annual receipts and must perform at least 40 percent of the volume dredged with
its own equipment or equipment owned by another small dredging concern.

According to the SBA acceptance officials, it was impossible to determine
whether the contractors met the 40-percent size standard requirement at the time of
the procurement’s acceptance. This is because acceptance is required prior to the
contract’s solicitation and as a result, neither SBA nor the procuring agency knows
how and with what equipment the potential contractor will perform the work.
Consequently, SBA improperly accepted both contracts into the 8(a) program. As
long as acceptance into the program occurs prior to contract award, SBA will
continue to lack the information needed to properly accept participants into the
program.

The Jacksonville Contractors Did Not Meet SBA Joint Venture Application
Requirements
                                                                                      5




The regulations for the 8(a) program require SBA to review and approve mentor
protégé joint venture arrangements prior to contract award to ensure the 8(a)
participants:

     • develop a joint venture agreement that is fair and equitable to all parties;

     • demonstrate they lack the necessary capacity to perform the contract on
       their own;

     • will bring substantial resources and/or expertise to the contract; and

     • will receive substantial benefit and perform a significant portion of the
       contract.

Based on our review of SBA's files, the North Florida District Office did not
obtain sufficient support to show the joint venture arrangement met program
requirements. The joint venture application failed to demonstrate that the 8(a)
participant met the size standard requirements, how the joint venture would
perform the required percentage of work, and the resources and expertise the 8(a)
participant brought to the contract. Consequently, the audit determined that SBA
did not ensure the agreement was fair and in the best interest of the 8(a) participant
before approving the joint venture arrangement.

Additionally, representatives from the Jacksonville Corps of Engineers told us that
the 8(a) participant brought little value to the joint venture and could not explain
how it developmentally benefited from the contract. As a result, we determined
that SBA should not have approved the joint venture arrangement and improperly
accepted the procurement on the joint venture’s behalf.

The Philadelphia Contractor Did Not Meet Other Program Eligibility
Requirements

SBA approved the Philadelphia Corps of Engineers' selection of the 8(a)
contractor, although the contractor was unable to meet and perform certain
procurement requirements, as required by SBA 8(a) program regulations. Prior to
soliciting a firm for an 8(a) sole-source contract, a procuring agency must offer the
procurement to the applicable SBA district office for acceptance. SBA’s
acceptance of the procurement is conditioned upon determining, among other
things, that the procurement is consistent with the 8(a) participant’s business plan,
                                                                                                                6


and that the participant is small for the procurement and complies with its non-8(a)
business mix. 2

Despite the Philadelphia Corps of Engineers' selection and SBA's approval of the
contractor, the audit found that the contractor was not eligible for the 8(a)
program. The procurement was not consistent with the contractor’s business plan;
the contractor did not demonstrate it had the dredging equipment and expertise to
comply with the contract’s applicable size standards; 3 and it did not comply with
its 8(a) business target mix. Consequently, SBA should not have accepted the
procurement into the 8(a) program. Doing so resulted in the contractor violating
8(a) contract requirements as reported in Management Advisory Report 6-27.

The audit determined that these deficiencies occurred because SBA’s Philadelphia
District Office was unaware of the unique size standard requirement and
performed a limited review of the procurement. The Philadelphia Corps of
Engineers also was not aware that the contractor could not receive significant
contract assistance from its mentor without an approved joint venture.

Further, recent reductions in SBA’s district office workforce have resulted in the
loss of experienced personnel, many of which have not been replaced. For
example, in the Philadelphia District Office, one employee performs the work that
was previously performed by four individuals. District office staff we interviewed
expressed concerns about the decrease in its workforce and the resulting effect on
its oversight of the 8(a) and Mentor Protégé programs. They told us their
workload is excessive, which limits their ability to adequately service the 8(a)
participants in their portfolio, and they have not received adequate training on
program requirements.

Further, according to the Associate Administrator for Business Development, the
8(a) program office has no control over how district resources, which report to the
Associate Administrator for Field Operations, are used. Consequently, district
office staffs do not spend a sufficient amount of time overseeing compliance with
8(a) and Mentor Protégé program requirements.


2
    To ensure that participants do not develop an unreasonable reliance on 8(a) awards and to ease their
    transition into the competitive marketplace after graduating from the 8(a) program, participants must
    make maximum efforts to obtain business outside the 8(a) program. Any firm that does not meet its
    applicable competitive business mix target for the program year is ineligible for sole-source 8(a) contracts
    in the current program year, until the participant corrects the situation.

3
    In 2005, the size standard for dredging contracts required that the company have less than $17 million in
    annual receipts and perform at least 40 percent of the volume dredged with it own equipment or
    equipment owned by another small dredging concern.
                                                                                  7


Moreover, discussions with SBA officials, including the individual who
establishes SBA’s small business size standard requirements, revealed they did not
know how to properly assess compliance with the 40 percent requirement. For
example, the Philadelphia District Office acceptance official stated he would not
have accepted the procurement into the 8(a) program on the contractor’s behalf
had he fully understood the size standard for dredging contracts and properly
reviewed the contractor’s 8(a) file. Officials in both district offices, believe the
program office does not provide meaningful support in interpreting required
policies and providing advice on how to handle certain situations. According to
the Associate Administrator for Business Development, her office is not permitted
to contact the district offices directly, but rather, must work through a liaison
designated by the Office of Field Operations.

Contracts Were Not Performed in Accordance With Program
Requirements

The audit also disclosed that both dredging contracts were not performed in
compliance with work performance requirements; and that the Jacksonville
contractor did not comply with its approved joint venture agreement. The work
performance percentage, size standard, and joint venture agreement requirements
were designed to ensure that 8(a) small business contractors are the primary
beneficiaries of 8(a) contracts. The dredging contracts included these
requirements and the procuring agencies were expected to monitor the prime
contractor's compliance.

SBA was required to ensure the joint venture entity met the work performance
requirements and complied with the terms outlined in its joint venture agreement.
SBA was also ultimately responsible for ensuring the 8(a) participants complied
with the program regulations. SBA’s failure to ensure that the procuring agencies
were monitoring contractor performance and adhering to program requirements
led to abuses of the 8(a) and Mentor Protégé programs.

8(a) Contractors Did Not Perform the Required Percentage of Work

The audit disclosed that the Jacksonville and Philadelphia 8(a) contractors did not
perform the required percentage of work for their contracts. SBA regulations
require prime contractors for general 8(a) construction contracts, including
mentor/protégé joint ventures, to perform at least 15 percent of the cost of the
contract with their own personnel. This work performance requirement was
included in both dredging contracts in accordance with Federal Acquisition
Regulations (FAR) clause, 52.219-14, Limitations on Subcontracting.
                                                                                     8


Despite these requirements, the Jacksonville contractor performed 13.6 percent of
the cost of the contract with its own employees (see Appendix I) and as reported in
OIG Management Advisory Report, 6-27, the Philadelphia contractor performed
only 1.9 percent with its own employees. Accordingly, both contractors violated
SBA 8(a) work performance requirements and FAR regulations.

Officials from SBA’s Jacksonville and Philadelphia District Offices told us they
are not involved with the contracts after they are accepted, and many times are
unaware the contracts have been awarded. Instead, the district offices rely on the
procuring agency to ensure contractor compliance and provide assistance when
requested.

Both the Jacksonville and Philadelphia Corps of Engineers acknowledged it was
their responsibility to ensure compliance with work performance requirements.
Officials from the Jacksonville Corps of Engineers told us they conducted field
checks and reviewed certified payroll records and progress reports. However,
contract documentation revealed they only received certified payroll records for
laborers and workers, but not for managers and salaried employees. Accordingly,
they did not receive sufficient information to perform an accurate determination of
the percentage of work performed by the protégé. Additionally, the Corps' current
internal procurement tracking system, which records and calculates a contract's
subcontracting percentage, inaccurately reported that the joint venture performed
44 percent of the contract.

Officials from the Philadelphia Corps of Engineers could not identify which of its
procurement officials monitored contractor compliance. The contracting officer
stated that the project and on-site construction managers ensure the contractor
complies with the work performance requirements, while the construction
managers told us they do not know how to calculate the work percentage.

By failing to perform the required percentage of work, the Jacksonville and
Philadelphia contractors violated SBA regulations and the terms of their contracts
and allowed non-8(a) program participants to receive substantial benefit from the
8(a) contracts. Further, the procuring agencies failed to monitor contractor
compliance with the limitations of subcontracting clause, permitting non-8(a)
participants to benefit from the 8(a) contracts.

8(a) Contractors Did Not Perform Work in Accordance with Size Standards

The audit determined that neither the Jacksonville nor Philadelphia contractors
performed their respective contracts in accordance with SBA dredging size
standards. Dredging size standards require that a company must have less than
$17 million in annual receipts and perform at least 40 percent of the volume
                                                                                    9


dredged with its own equipment or equipment owned by another small dredging
concern. The audit disclosed that both contractors met the $17 million
requirement for annual receipts, but failed to perform 40 percent of the dredging
with small business equipment. By failing to meet both requirements under the
size standard, the contractors violated the terms of their contracts and SBA
regulations.

On the Jacksonville contract, neither the mentor nor the protégé owned the
dredging equipment needed to demonstrate that 40 percent of the volume was
dredged with small business equipment as required by the size standard. The
protégé asked SBA to determine whether its mentor could lease the required
contract equipment from a large business, bring it into the joint venture
relationship for contract performance, and still be considered small under the
dredging size standard. In response to this request, SBA rendered an opinion,
stating that a large business mentor could rent dredging equipment from another
large business and then sublease it to the 8(a) participant or joint venture, and
comply with the 40-percent size standard requirement. Based on this opinion,
SBA and the Jacksonville Corps of Engineers believed that the contract met the
size standard requirement. Jacksonville Corps of Engineers officials were also not
privy to the lease agreement and contractor bank statements.

While SBA deemed this arrangement acceptable, we believe it contravenes the
intent of the size standard and the program because it permitted a large business to
provide the equipment used to perform all of the work. However, under the size
standard, the protégé/joint venture can only be considered small and therefore be
eligible for the program, if it provided or leased from a small business the
equipment used for 40 percent of the volume dredged. Thus, the intent of the size
standard was to have small businesses benefit from the work performed.

As we reported in Management Advisory Report No. 6-27, the Philadelphia
contractor also did not meet SBA’s size standards. The audit disclosed that the
mentor provided all of the equipment used for contract performance. This
occurred because officials from the Philadelphia Corps of Engineers wrongly
believed that the protégé was permitted to use its mentor’s equipment to meet the
contract’s 40 percent size standard requirement. By the time Corps officials were
made aware that this was not allowed, only two days of work remained on the
contract. Consequently, they took no corrective action to ensure contractor
compliance with the size standards.

Jacksonville Contractor Did Not Meet SBA Joint Venture Requirements
                                                                                   10


Our review of the Jacksonville contractor’s joint venture agreement and contract
documentation revealed that it violated the terms of its SBA-approved joint
venture agreement because:

• the protégé did not manage the project (e.g., it did not oversee contract cost and
  schedule performance) or maintain the accounting and administrative records,
  for the joint venture; and

• the mentor did not lease the labor and equipment for the dredge to the joint
  venture in compliance with SBA’s opinion, as discussed earlier.

These deficiencies occurred because neither the North Florida District Office nor
the procuring agency monitored the joint venture’s compliance with its approved
agreement. SBA joint venture policies require district offices to annually review
joint ventures and conduct close-out meetings with the venture’s participants in
order to examine its compliance with prime contractor requirements and ensure
the contract was performed as stipulated in the agreement.

Our review of the joint venture’s files confirmed that the North Florida District
Office did not conduct a post-contract review. District officials explained that due
to limited resources, they rely on the procuring agencies to ensure compliance.
They only meet with 8(a) participants to ensure participants are satisfied with the
joint venture and have received 51 percent of the profits. They further told us they
did not request or receive a copy of the 8(a) company’s joint venture agreement.

We believe it is imperative that SBA ensure its district offices have the necessary
resources to properly perform the post-contract reviews and require accountability
to prevent future abuses of SBA of the 8(a) and Mentor/Protégé programs.

Procuring Agencies Failed to Properly Monitor Contract Compliance with
Program Regulations As Required By Their Partnership Agreements

The problems noted in the two dredging contracts further highlight that procuring
agencies are not effectively monitoring contract compliance with 8(a) program
regulations, as required by their partnership agreements with SBA. In 1998, SBA
delegated the contract execution function to procuring agencies by entering into
partnership agreements with them. The delegated authority included ensuring
compliance with 8(a) program regulations.

Reports issued last year by the GAO and the OIG have shown that the lack of
procurement agency oversight is a systemic issue across the 8(a) program. GAO
reported in its audit, Increased Use of Alaska Native Corporations’ Special 8(a)
                                                                                   11


Provisions Calls for Tailored Oversight, 4 that after reviewing 16 8(a) contracts it
found almost no evidence that the procuring agencies are effectively monitoring
compliance with the limitations of subcontracting requirement. Also, the OIG
report, Monitoring Compliance With 8(a) Business Development Regulations
During 8(a) Business Development Contract Performance, 5 disclosed that none of
the 23 agencies reviewed monitored whether companies complied with 8(a)
regulations when completing contracts.

SBA has allowed this problem to continue as it has not performed the needed
surveillance reviews to determine the extent to which agencies are complying with
their partnership agreements. As we reported in 2006, we could find no evidence
that SBA conducted surveillance or oversight reviews of procuring agencies to
ensure they effectively monitored companies for compliance with 8(a) business
development regulations.

We consider SBA's inability to effectively monitor procuring agency adherence to
the requirements of the 8(a) and Mentor Protégé programs to be a material
weakness that should be noted in the Administrator's FY 2007 internal control
assurance statement. The Office of Management and Budget Circular A-123 and
the Federal Managers’ Financial Integrity Act require agencies to maintain an
adequate system of internal controls and to assert annually that agencies are in
compliance with this requirement. Because we continue to find no evidence of
oversight by SBA of procuring agency compliance with SBA 8(a) regulations, we
believe the Agency does not have effective internal controls to prevent and detect
violations of SBA program regulations.

RECOMMENDATIONS

We recommend that the Associate Administrator for Field Operations:

1. Communicate to district office officials they should not accept procurements
   on behalf of 8(a) participants unless they have been provided sufficient
   information from the procurement office and/or the 8(a) participant to ensure
   procurements are accepted in accordance with federal laws and regulations.

2. Develop effective and efficient controls to ensure district offices are
   performing required reviews of procuring agencies to ensure they are procuring
   8(a) contracts in accordance with federal laws and regulations and their
   partnership agreements with SBA.


4
    GAO-06-399, April 2006.
5
    Audit Report No. 6-15, March 2006.
                                                                                  12


3. Work with the Associate Administrator for Business Development to better
   support the district offices in interpreting required policies and providing
   advice on how to handle certain situations; and report any impediments to
   improving field support to the Deputy Administrator.

4. Work with the Associate Administrator for Business Development and
   Associate Administrator for Human Capital to review SBA's district workforce
   servicing the 8(a) program in the field and develop a plan to ensure sufficient
   oversight resources are made available to ensure the 8(a) program is
   maintained in accordance with federal laws, SBA regulations, and internal
   policies and procedures.

We recommend that the Assistant Deputy Administrator for Government
Contracting and Business Development:

5. Rescind its interpretation of NAICS code size standard footnote, Dredging and
   Surface Cleanup Activities, which allows a large business mentor to rent
   dredging equipment from another large business and then sublease it to the 8(a)
   participant or joint venture.

We recommend that the Chief Financial Officer:

6. Determine whether SBA's inability to effectively monitor the 8(a) and Mentor
   Protégé programs should be reported as a material weakness in the
   Administrator's FY 2007 internal control assurance statement if all
   recommendations outlined in this report are not completely addressed by that
   time.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

The Agency provided written comments on a draft of this report. These comments
are summarized in the Results in Brief section, and the full text of the comments
can be found in Appendix III to this report.

Comments from the Office of Field Operations

OFO partially agreed with recommendations 1 and 3 and fully agreed with
recommendations 2 and 4. Where OFO partially agrees, it proposed actions that
satisfy the intent of the recommendations.
                                                                                  13


In its response, OFO stated it was committed to work with the Office of
Government Contracting and Business Development (OGCBD) to address the
issues and recommendations outlined in the report. To satisfy recommendations
1 – 3, OFO proposed to:

    ›   Reiterate proper 8(a) procurement procedures to field officials through
        informational notices, communication, and training.

    ›   Request the District Director Advisory Council review and comment on
        revisions to program policies and procedures to ensure their understanding
        of and input to procedural changes.

    ›   Serve as a facilitator between the program and field offices and
        communicate concerns voiced by field officials.

    ›   Provide continuous contract administration training sessions including
        sessions on the Mentor Protégé Program and Joint Ventures.

    ›   Hold district officials accountable for performing 8(a) program
        requirements..

For recommendation 4, OFO stated that it is in the process of addressing the
recommendation and is committed to allocating resources in the most effective
and efficient manner to ensure that all program requirements are addressed.

Office of Inspector General’s Determination

We find OFO’s proposed actions and stated final action target dates for
recommendations 1 - 3 to be acceptable. Considering OFO’s response that they
are in the process of addressing recommendation 4, we request that they provide
us a copy of their assessment the current the district workforce in meeting all the
requirements according to 8(a) program federal laws and regulations so we may
immediately close this recommendation. We request this information by April 30,
2007.

Comments from the Office Government Contracting and Business
Development

The OGCBD agree with the report’s findings and recommendations and agreed to
work with the OFO address recommendations 1-4 by the end of fiscal year 2007.
As for recommendation 5, where we recommended OGCBD rescind its
interpretation of the dredging size standard which stated mentor protégé joint
ventures could lease equipment from a third party, it agreed to do so. By the end
                                                                                   14


of the fiscal year, OGCBD will require that mentor protégé joint ventures meet the
size standard and footnote requirements in the same manner as all other small
business.

Office of Inspector General’s Determination

We find OGCBD’s proposed actions and stated final action target date to be
acceptable.

Comments from the Office of the Chief Financial Officer

The Office of the Chief Financial Officer agreed with our recommendation and
will work with the 8(a) program to determine whether SBA's inability to
effectively monitor the 8(a) and Mentor Protégé programs should be reported as a
material weakness in the Administrator's fiscal year 2007 internal control
assurance statement. Also in its reply, the Chief Financial Officer noted that we
did not identify how we selected our sample of reviewed contracts. To clarify, we
did not select a sample of contract but rather, reviewed the two contracts that were
subject to a complaint we received. Additional information about the two
contracts is outlined in the background and scope sections of this report.

Office of Inspector General’s Determination

We find OCFO’s proposed actions and stated final action target date to be
acceptable.

We appreciate the courtesies and cooperation of Small Business Administration
officials from the North Florida and Philadelphia District Offices and Office of
Business Development and during this audit. If you have any questions
concerning this report, please call me at (202) 205-7203.


cc:    Richard Brechbiel
       Assistant Administrator for Human Resources

       Luz Hopewell
       Associate Administrator for Business Development
                                                                15


APPENDIX I.

  Percentage of Work Performed by the Joint Venture on the
                   Jacksonville Contract

                   Cost Category                    Cost
    Sub contracting expenses
    Joint venture equipment
    Joint venture payroll expense               [Exemption 4]
    Payroll G&A
    Other miscellaneous expenses
   Total Contract Costs
                                                    $ 1,558,671.50
   Cost of Contract Less profit, fees and
                                                     1,367,161.91
   materials
   Total payroll costs incurred by the            [Exemption 4]
     joint venture
   Percentage of the contract cost, excluding
   materials, performed by the joint venture                13.6%
   (187,052.43/1,367,161.91)

     Percentage of Work Performed by the Protégé on the
                    Jacksonville Contract

                   Cost Category                    Cost
    Sub contracting expenses
    Joint venture equipment
    Joint venture payroll expense               [Exemption 4]
    Payroll G&A
    Other miscellaneous expenses
   Total Contract Costs
                                                    $ 1,558,671.50
   Cost of Contract Less profit, fees and
                                                     1,367,161.91
   materials
   Total payroll costs incurred by the            [Exemption 4]
    joint venture
   Percentage of the contract cost, excluding
   materials, performed by the joint venture                 2.4%
   [Exemption 4]
                                                                             16



APPENDIX II. SCOPE AND METHODOLOGY

    To determine whether the Small Business Administration (SBA) properly
    accepted the two procurements into the 8(a) program, we reviewed relevant
    legislative and regulatory requirements of the 8(a) and Mentor Protégé
    programs, including Title 13 of the Code of Federal Regulations, section
    125, on size standards. We compared the dredging size standards to the
    annual receipts and volume dredged by the prime contractors for both
    contracts. We also reviewed SBA's Partnership Agreement with the
    Department of Defense to determine the required procedures when
    awarding and monitoring 8(a) contracts.

    We reviewed the procurements' offer, acceptance, and source selection
    documentation from SBA and the procuring agencies. In Jacksonville, we
    also reviewed the North Florida District Office's review and approval of the
    joint venture agreement.

    To determine whether the two contracts were performed in compliance with
    program requirements, we reviewed administrative and performance
    contract documentation including subcontracting agreements, contract
    expense source documents, and monitoring reports. To determine whether
    the contractors complied with the size standard requirements, in
    Philadelphia we reviewed field reports to identify the equipment used for
    contract performance, and in Jacksonville we reviewed bank records and
    invoices to assess whether the joint venture met SBA's dredging size
    standard opinion.

    To determine whether the contractors performed the required percentage of
    work, we reviewed contract expenses and calculated the cost of the
    contracts less materials, as a percentage of costs incurred by the prime
    contractors according to payroll records. In Jacksonville, we also
    determined whether the joint venture complied with its SBA-approved joint
    venture agreement by reviewing the contract correspondence and reports.

    We met with the Office of Business Development and district office
    officials to determine the extent to which SBA did surveillance reviews and
    engaged in other monitoring activities to ensure procuring agencies were
    complying with 8(a) and Mentor Protégé program regulations.

    We conducted this audit at SBA's headquarters and Philadelphia and North
    Florida district offices and the U.S. Army Corps of Engineers Districts in
    Philadelphia and Jacksonville. We met with representatives from SBA's
                                                                        17


Office of Business Development, Office of Size Standards, Office of
Government Contracting, Office of General Counsel, SBA’s North Florida
and Philadelphia and the Army Corps of Engineers Philadelphia and
Jacksonville district offices, and, when appropriate, the 8(a) program
participants.

We conducted our audit from February 2006 to September 2006, in
accordance with Government Auditing Standards prescribed by the
Comptroller of the United States, and included such tests as were
considered necessary to provide a reasonable assurance of detecting abuse
or illegal acts.
   APPENDIX Ill. AGENCY COMMENTS

                         U .S. SHALLBUS~NESS
                                           ADM!N!STR~TIOH
                                     WK.HINCTOH,
                                              D.C. 2041 8




DATE:               March 27;201)7

TO:                 Debra S .
                                        r
                                         .
                    A s d t h p t ~ t o General
                                               \
                                                for Anditing
                                        [Exemption 6]
FROM:
                1
                    Office of Field Qpmtions

                    Audit of Two g(a) Solc-Some Contracts Awardtd to
                    Conbadon in SBA's Mentor-ProtZ.gh Pm-

T h e Office ~fFicld Optrations appreiatts tbe opporbmity to mmmcnt on &c
M a d 9,2007,subjwt draft report titled "Audit of Two &(a) Sole-Source C o n w t ~
Awardad to Contractors in SBA's Mentor-Pmthgk Pmpam".

& B $enera1 commmf OF0 is committed t o working wi& the O B c c of GUBD to &tss
#c j s s ~ t sia the d t

                                 -
RE.COMMENDATION #1 Cammlrnieate to disbict office officials that they should not
aceqt procuremmls on behalf of 8(a) participants unless they have becn provided sufIicicnt
infannation Barn the procurement office andlbr !he g(a) parficipmt to msnrt prbnuamts
m accepted in accordance with fderal laws and regulations.

Response; OF0 padally a w e s with Recommmdation #I. While tht B(a) Business
Development progr-tic          h c t i o n ~and strviees are dslivered at tht d i ~ h cIevcI,
                                                                                        t     the
rcspmibility to communicate guidance concerning fadcral laws end regul2tions of t h i ~
nature fb district office Btdf rests with        fbc office of B ~ l s ' Devdoprnmt
                                                                          i~                  the
Offjct of Fidd W a t i o n s .

Proposed Solytioms:

  1. Informdion Notice: Ofice of Bnsiness Dwelopmcnt draft m hfomaticn Notic c
     which m m m eaten  ~ idomation concerning acceptance of pmcwcments on behdf of
     8 (a) participants. Tbis notice canrcihzate achapttr in      SOP or whatever other
     guidance the GDBD staff dean amropriatc. h addi.tion, propose that subsequsnt
     n~tjceswith "new" infomation be distiihtba on ti r t p l a r basis. OF0 will reiterate the
     i s s m c t and important c of adhering to an appropriate GCBD gddarlce

      T r d i n g - FY 2007 Training Schedule hcludes a March. 28 scssiou on Mentar
      ProtigZ and Joint Venhrres and a session on the overall 8Ea) conbaclingprogram
      (includes Mentar Pr~tGgdand Joint Ventures) is schcdulcd fm September 26.
 APPENDIX Ill. AGENCY COMMENTS


RECOMMENDATION #2 - Dtvdor, effective aad eflicient controls to ensure &strict
offices are performing required reviews of procuring agencies to ensure they are
procuring 8(a) contracts in accordance with federal laws and regulations and heir
parhershp agreements with S B k

Response: OF0 agrees with Recommendation #2.

Prop~sedSolutions:

I. Include an element in the QSR that addresses tbe field office's review of procuring
   agencies execution of 8(a) contracts. .

2. Training - GCBD has scheduled a Conbact Adminisbation (i.e, parlnershp
   agreements and various conb-acting mechanisms) session on April 25,2007. Also
   scheduled is a general Contracting Overview session on September 26, 2007.

RECOMMENDATTON # 3 - Work with Associate Ahhistrator for Business
Development to better support the k s b i c t offices in interpreting required policies and
providing advice on how t o handle certain situations; and report any impediments t o
improving field support t o the Deputy Administrator.

 Response: OF0 partially agrees with this recommendation. OF0 can collect areas of
 concern from h e district offices regarding ambiguities in policies and procedures and
 refer them to GCBD. OF0 can serve in a facilitator role to obtah clarification or
 p d i c i p a t e in policy discussions, however, the interpretation of policies should be a
 program office {GCBD) responsibility at a minimum and potentially a?. Office of
 General Counsel issue. OF0 can work with. GCBD to identify Frequently Asked
 Questions (FAQ) and Answers or best practices and distribute them to Geld offices.

 Proposed Sciiutions:

 1) Mentor ProtCeC Px~vramSOP - Has been revised            the Office of BD is anticipating
    clearance to begm within the next t w o weeks. O F 0 can v e t the document h-ough the
    Dislrict Director Advisory Council to obtain their comments whch could identify policy
    directives contained therein which need further clari5cation before thc SOP is issued in
    final.

 2) Monthly Conference Calls - Office of Business Development currently holds monthly
    conference calls with the Business Development Specialis2 (BDSs) where topics
    include the v&ous components of the B(a)/BD Program. UFO can serve as a condui~to
     raise topics for discussion on training sessic?ns.

 RECOMMENDATION #4 - Work with the Associate Administrators for Busbess
 Development and for Hllman Capital to review SBA's district workforce servicing t h e
 8(a) program in the field 2nd d e v t l o p ~ ~ eto
                                                  n t ensure sufficient oversight resources are
 made available to ensure the 8{a) program is maintzined in accordance with federal
 laws, SBA regulations and internal policies md ~roccdures.

  Response: OF0 is already addressing Recommccdatiox # 4. As !he IG is h12y
  aware, there arz limited resourcts in the field and O F 0 does not h a v t the unilatera!
                                    2
 APPENDIX Ill. AGENCY COMMENTS


azltbority to hire additional staff. Despite my resource challenge, OF0 is
committed to allocatingits resources in the most efficient and effective manaer. To
that end, OF0             its rtsourccs to ensure all p r o m c o m p b c e issues are
Bddrtssbd T h e Agmcy is currently addressing roles and responsibrlitics in all
mjor p r o p area, and though this exercise much ofRecpmmmdation $4
should be resolvd.

Thank you forthe opporhmity to pruvide comments.

cc:   Dt.PaulHsqMGU3I)               -
      CaIvin Jenkins, D M G C I B D
      L u Hopewell, AAlBD
      Audrey Dclaaty, Auditor-In-Chargt
      APPENDIX Ill. AGENCY COMMENTS



                            U.S. Smnu B~SINESS
                                            ADMIMISTMTION
                                  . WASHINOTON,
                                              D.C. 20418




DATE:
TO:         Debra S.Ritt
            hsistant *tor        General f~

FROM:        Calvin J   d , AAIGC&BD          [Exemption 6]


StEECT: Audit of Two 8(a) Sale-Sou- contracts kwarded to C m c t o r s in SBA's
        Mentor Protdgt Program



   The O 6 u of Govemmcnt Conmirig & Business Development is pleased to provide the
   following response b tht draft report entitld "Audit of Two 8 (a) Sole-Source Contracts
   Awarded to Contractors in SBA's Mentor Protigd: Program", dated March 9,2007:

   Recornmeadation 1 - 4
   The Ofice of Govemmcnt Contracting & Business Dcvtlopmcnt has me€with &t Ofice of Field
   Operations aod is working with them to address IG Recommendations 1- 4 by the end cf Fiscal
   Year 2007.




   In the subject draft audit rcpo& you recommend that the Office of G o v e m e n t
   Contracting and Business Development rescind its interpretation that an 8 (a) Mentor
   Prot6gl joint venture may utilize equipment l e a d by the mentor and provided to the
   prott g t to comply with the size standard requirement that 4 0 p'mcent of the volume
   dredgcd must l  x performed by equipment owned by the small business contractor or
   equipment owned by another small business.

   W e agree with this mmmendation. Current regulations for the 8(a) Business
   Development Pmgmm and Smdl Business Size Regulations contain provisions that
   suggest d i f f m t interpretations on this matter. Upon further review of the regulations
   and the m n m raised by your audit findings, the footnote to the dredging size standard
   shall be a requirement applied to 8(a) M eator Protlgi joint ventures in the samt m m t r
   as fo d mall businesses.
    APPENDIX III. AGENCY COMMENTS



Accordingly, my oEcc plans to revise its regul~titionsclaffyjhg l h t 8(a) Mentor PmthgC
joint ventures must comply with the plain language of foobott ta the dredging size
standard. A proposed rule will be prtparcd before the end of fiscal year 2007.

Pltase fulhx to -tact     mt if you   have any quchons or require additional information.

cc: Michael Pappas, - W O F O

    Dr-Pad H q MGC-BD
    lennifex Main, CFO

    Luz Hopewcll, DE3D
   APPENDIX Ill. AGENCY COMMENTS




Date:         February 28,2007

To:           D e b S. Ritt
              Assistant h p e c t ~ G c n e r a for
                                                l Auditing

              J..,       M# [Exemption 6]
              Chief Finandal fficer

hbject:        Draft Report on tbe Audit of Two 8(a) Sole-Source Co-        Awarded to
Contractors in SBA's Mentor F rotkg6 Program

       The draft report on the audit of twa 8(a) sole-source conb-acts awarded to
contractors in 'SBA'sMentor Protdgt program contains 6 recommendations. One ofthe
recommendations usas addressed to the Chief Financial Officer (CFO). T h e Office of the
CFO is in general agreement with the recornmendation.

       CFO will work with the office of Govrmmcnt Contracting md Business
Development [GCBD) on their corrective action in monitoring the 8(a) and Mentor
Protkgi programs. We understand that Field Operations also has a role in the process, so
we will work with that office as well. OCFO wiU also evaluate tht progress made in the
8(a) and Mentor Protdgk program at the end of this fiscal year. We will work with
GCBD and Field Operations to determine whether SBA's inability to eBectivtly monitor
these programs should be reported as a material w e h t s s in the Administrator's FY
2007 internal control assurance'stakment

       For the record however, I would like to point out that the IG report fails to
mention the method used for sel&g the samples. In order to detmnhe materiality, thc
proportion o f t h a exception to tht entirt population ntcds to be taken into account.

        Thank you for the opporhmity to provide comments to the draft report.
